Office of Material Loss Reviews
Report No. MLR-10-012


Material Loss Review of Southern
Community Bank, Fayetteville, Georgia




                                  January 2010
                                      Executive Summary

                                      Material Loss Review of Southern Community
                                      Bank, Fayetteville, Georgia
                                                                                       Report No. MLR-10-012
                                                                                                January 2010

Why We Did The Audit
On June 19, 2009, the Georgia Department of Banking and Finance (DBF) closed Southern Community
Bank (Southern Community), Fayetteville, Georgia, and named the FDIC as receiver. On July 6, 2009,
the FDIC notified the Office of Inspector General (OIG) that Southern Community’s total assets at
closing were $380.6 million and the estimated loss to the Deposit Insurance Fund (DIF) was
$112.8 million. As required by section 38(k) of the Federal Deposit Insurance (FDI) Act, the OIG
conducted a material loss review of the failure of Southern Community.

The audit objectives were to (1) determine the causes of the financial institution’s failure and resulting
material loss to the DIF and (2) evaluate the FDIC’s supervision of the institution, including
implementation of the Prompt Corrective Action (PCA) provisions of section 38.

Background
Southern Community was chartered as a state nonmember bank on June 2, 2000 and was headquartered in
Fayetteville, Georgia, a southern suburb in the Atlanta metropolitan area. In addition to its main office,
Southern Community operated six full-service branch offices in various locations around the southern
Atlanta area. The majority of Southern Community’s lending was in commercial real estate (CRE), with
a particular focus on residential acquisition, development, and construction (ADC) loans. Southern
Community historically relied upon aggressively priced deposits, brokered deposits, and Federal Home
Loan Bank (FHLB) borrowings to fund loan growth. Southern Community was wholly owned by
Southern Community Bancshares, Inc., of Fayetteville, Georgia.

Audit Results
Causes of Failure and Material Loss

Southern Community failed because of a rapid deterioration in asset quality that led to loan and
operational losses that quickly eroded the bank’s capital. Specifically, Southern Community’s excessive
ADC concentrations, coupled with poor Board oversight and risk management practices, led to rapidly
increasing levels of nonperforming loans and foreclosed properties when economic conditions began to
deteriorate in 2007. Despite actions taken by the Board in 2007, 2008, and 2009, including steps to
diversify its loan portfolio, replace the management team, and secure additional capital, the bank’s
condition continued to deteriorate, and in 2009, the bank’s liquidity levels became critically deficient.
DBF closed Southern Community because of its core unprofitability, inability to raise sufficient capital to
support its operations, and weak liquidity position.




                                  To view the full report, go to www.fdicig.gov
   Executive Summary
                                     Material Loss Review of Southern Community
                                     Bank, Fayetteville, Georgia
                                                                                     Report No. MLR-10-012
                                                                                              January 2010

The FDIC’s Supervision of Southern Community

The FDIC and DBF conducted annual on-site examinations of Southern Community consistent with
requirements and monitored its condition through the use of various offsite monitoring mechanisms.
Examiners consistently identified and reported on Southern Community’s ADC concentrations and
reliance on non-core funding. However, the bank’s asset quality, liquidity, and overall financial condition
were considered satisfactory until the 2008 examination. By then, asset quality had rapidly declined due
to the severe economic downturn. In hindsight, greater supervisory emphasis on the risk profile created
by the ADC concentrations reported in the 2005 examination would have been prudent, in light of the
historical vulnerability of ADC concentrations to economic cycles. In addition, although it is not
necessarily indicative of supervisory concern, one of the FDIC’s offsite monitoring tools used in planning
examinations indicated that Southern Community had a high exposure to a potential economic downturn
because of its ADC concentrations. Accordingly, the 2005 examination report could have emphasized to
the bank the fundamental importance of risk diversification, as was done in the 2008 examination, even
though few risk management problems were identified in the on-site examination. Doing so may not
have been effective in persuading management to diversify its portfolio at that time, but such emphasis
would have served to establish a supervisory tenor and expectations regarding the Board’s basic risk
management responsibility that was found to be lacking in 2008.

With respect to PCA, based on the supervisory actions taken, the FDIC properly implemented applicable
PCA provisions of section 38 in a timely manner. The bank was unsuccessful in raising needed capital
and was subsequently closed on June 19, 2009.

Management Response

On January 6, 2010, the Director, DSC, provided a written response to the draft report. That response is
provided in its entirety as Appendix 4 of this report. DSC reiterated the OIG’s conclusions regarding the
cause of Southern Community’s failure. With regard to our assessment of the FDIC’s supervision of
Southern Community, DSC noted that examiners consistently identified the sizable ADC concentrations,
yet judged the overall financial condition to be satisfactory despite Southern Community's high risk
profile through the 2006 examination. The 2008 examination reported significant deterioration in credit
administration and underwriting. DSC agreed that emphasis of the fundamental importance of risk
diversification might have better established supervisory expectations regarding the Board’s basic risk
management responsibility.




                                 To view the full report, go to www.fdicig.gov
                                Contents
                                                                       Page


Background                                                               2

Causes of Failure and Material Loss                                      2
 Concentration in ADC Loans                                              3
 Oversight and Risk Management Practices                                 4
 Reliance on Volatile Funding Sources                                    6


The FDIC’s Supervision of Southern Community                             7
 Supervisory History                                                     7
 Supervisory Concerns Related to ADC Concentrations                      9
 Supervisory Concerns Related to ALLL                                   10
 Offsite Review Program                                                 11
 Supervisory Concerns Related to Volatile Funding                       12
 Implementation of PCA                                                  13

Corporation Comments                                                    14

Appendices 
 1. Objectives, Scope, and Methodology                                  15
 2. Glossary of Terms                                                   17
 3. Acronyms                                                            19
 4. Corporation Comments                                                20

Tables
 1. Financial Information for Southern Community, 2005 to 2009           2
 2. Southern Community’s ADC Concentrations Compared to Peer Group       3
 3. Examinations and Visitations of Southern Community, 2005 to 2009     9
 4. Southern Community’s Adversely Classified Assets and ALLL           10

Figures
  1. Southern Community’s Net Non-Core Funding Dependence Ratio          6
  2. Southern Community’s Percentage of Brokered Deposits to Total      12
     Deposits
Federal Deposit Insurance Corporation
3501 Fairfax Drive, Arlington, VA 22226                                            Office of Inspector General


DATE:                                     January 6, 2010

MEMORANDUM TO:                            Sandra L. Thompson, Director
                                          Division of Supervision and Consumer Protection

                                          /Signed/
FROM:                                     Stephen M. Beard
                                          Assistant Inspector General for Material Loss Reviews

SUBJECT:                                  Material Loss Review of Southern Community Bank,
                                          Fayetteville, Georgia (Report No. MLR-10-012)


As required by section 38(k) of the Federal Deposit Insurance (FDI) Act, the FDIC
Office of Inspector General (OIG) conducted a material loss1 review of the failure of
Southern Community Bank (Southern Community), Fayetteville, Georgia. The Georgia
Department of Banking and Finance (DBF) closed Southern Community on June 19,
2009 and named the FDIC as receiver. On July 6, 2009, the FDIC notified the OIG that
Southern Community’s total assets at closing were $380.6 million and that the estimated
loss to the Deposit Insurance Fund (DIF) was $112.8 million.

When the DIF incurs a material loss with respect to an insured depository institution for
which the FDIC is appointed receiver, the FDI Act states that the Inspector General of the
appropriate federal banking agency shall make a written report to that agency. The report
is to consist of a review of the agency’s supervision of the institution, including the
agency’s implementation of FDI Act section 38, Prompt Corrective Action (PCA); a
determination as to why the institution’s problems resulted in a material loss to the DIF;
and recommendations to prevent future losses.

The objectives of this material loss review were to (1) determine the causes of Southern
Community’s failure and the resulting material loss to the DIF and (2) evaluate the
FDIC’s supervision2 of Southern Community, including the FDIC’s implementation of
the PCA provisions of section 38 of the FDI Act. This report presents our analysis of
Southern Community’s failure and the FDIC’s efforts to ensure that Southern
Community’s Board of Directors (Board) and management operated the institution in a
safe and sound manner. The report does not contain formal recommendations. Instead,
as major causes, trends, and common characteristics of financial institution failures are
1
  As defined by section 38 of the FDI Act, a loss is material if it exceeds the greater of $25 million or
2 percent of an institution’s total assets at the time the FDIC was appointed receiver.
2
  The FDIC’s supervision program promotes the safety and soundness of FDIC-supervised institutions,
protects consumers’ rights, and promotes community investment initiatives by FDIC-supervised insured
depository institutions. The FDIC’s Division of Supervision and Consumer Protection (DSC) (1) performs
examinations of FDIC-supervised institutions to assess their overall financial condition, management
policies and practices (including internal control systems), and compliance with applicable laws and
regulations and (2) issues related guidance to institutions and examiners.
identified in our material loss reviews, we will communicate those to management for its
consideration. As resources allow, we may also conduct more in-depth reviews of
specific aspects of DSC’s supervision program and make recommendations, as
warranted. Appendix 1 contains details on our objectives, scope, and methodology.
Appendix 2 contains a glossary of key terms and Appendix 3 contains a list of acronyms.
Appendix 4 contains the Corporation’s comments on this report.

Background
Southern Community was chartered as a state nonmember bank on June 2, 2000 and was
headquartered in Fayetteville, Georgia, a southern suburb in the Atlanta metropolitan
area. In addition to its main office, Southern Community operated six full-service branch
offices in various locations around the southern Atlanta area. The majority of Southern
Community’s lending was in commercial real estate (CRE), with a particular focus on
residential acquisition, development, and construction (ADC) loans. Southern
Community historically relied upon aggressively priced deposits, brokered deposits, and
Federal Home Loan Bank (FHLB) borrowings to fund loan growth. Table 1 provides
details on Southern Community’s financial condition as of March 31, 2009 and for the
4 preceding calendar years.

Table 1: Financial Information for Southern Community, 2005 to 2009
Financial Measure             3-31-09       12-31-08       12-31-07       12-31-06   12-31-05
Total Assets ($000s)         $371,695       $381,791       $407,740       $385,813   $333,661
Total Deposits ($000s)       $297,962       $305,724       $303,255       $295,033   $263,095
Total Loans ($000s)          $223,680       $240,134       $290,796       $293,223   $253,954
Brokered Deposits ($000s)    $101,083       $101,083        $35,094        $39,607    $36,110
FHLB Funds ($000s)            $50,000        $50,000        $57,500        $44,500    $30,000
Net Income ($000s)           ($4,369)       ($17,598)      ($1,197)         $3,064     $2,210
Source: Uniform Bank Performance Reports (UBPR) for Southern Community.


Southern Community was wholly owned by Southern Community Bancshares, Inc.,
(SCBI) of Fayetteville, Georgia. SCBI provided capital to support the bank’s growth,
totaling approximately $4.2 million in 2008 to keep Southern Community Well
Capitalized. However, as the financial condition of the bank deteriorated, SCBI was not
able to provide additional support to the bank.



Causes of Failure and Material Loss
Southern Community failed because of a rapid deterioration in asset quality that led to
loan and operational losses that quickly eroded the bank’s capital. Specifically, Southern
Community’s excessive ADC concentrations, coupled with poor Board oversight and risk
management practices, led to rapidly increasing levels of nonperforming loans and
foreclosed properties when economic conditions began to deteriorate in 2007. Despite
actions taken by the Board in 2007, 2008, and 2009, including steps to diversify its loan



                                                2
portfolio, replace the management team, and secure additional capital, the bank’s
condition continued to deteriorate, and in 2009, the bank’s liquidity levels became
critically deficient. DBF closed Southern Community because of its core unprofitability,
inability to raise sufficient capital to support its operations, and weak liquidity position.

Concentration in ADC Loans

Southern Community’s strategy was centered on funding residential ADC loans in its
local lending area. Southern Community was located in an area that was considered to be
more affluent than the average market and had experienced significant growth.
Accordingly, Southern Community was able to grow its assets from $86 million at the
end of 2001 to $382 million by the end of 2006. ADC loans comprised over half of
Southern Community’s average gross loans by the end of 2008. In addition, Southern
Community’s ADC loans, as a percentage of total capital, increased from 217 percent as
of December 31, 2001 to 563 percent as of December 31, 2008,3 more than five times
greater than its peer group. As the level of its concentrations grew, the bank’s risk profile
increased. Table 2 summarizes Southern Community’s ADC concentrations in
comparison to its peer group.

Table 2: Southern Community’s ADC Concentrations Compared to Peer Group
                               ADC Loans as a                            ADC Loans as a
                         Percentage of Total Capital           Percentage of Average Gross Loans
    Year Ended            Southern                                 Southern
                         Community      Peer Group                Community         Peer Group
       2001                 217%             51%                    32.23%             7.09%
       2002                 225%             56%                    30.85%             7.72%
       2003                 243%             67%                    29.60%             8.67%
       2004                 266%             81%                    28.94%            10.43%
       2005                 457%            104%                    37.73%            12.72%
       2006                 480%            117%                    54.81%            14.96%
       2007                 484%            124%                    57.26%            16.31%
       2008                 563%            111%                    51.68%            15.26%
Source: UBPRs for Southern Community.

Supervisory guidance emphasizes that an institution’s Board is responsible for
establishing appropriate risk limits, monitoring exposure, and evaluating the effectiveness
of the institution’s efforts to manage and control risk. Further, Interagency Guidance on
Concentrations in Commercial Real Estate Lending, Sound Risk Management Practices,
dated December 12, 2006, stipulates that institutions with CRE concentrations should
manage not only the risk of individual loans but also portfolio risk and should develop
appropriate strategies for managing concentration levels, including a contingency plan to
reduce or mitigate concentrations in the event of adverse market conditions. According
to the 2008 examination report, Southern Community did not have such a plan. In mid-
2007, Southern Community recognized the need to diversify its portfolio because of
changes to the economic landscape. The bank planned to move into the equipment
financing arena and established specific portfolio mix targets and a plan for growth in

3
 The increase in risk exposure from ADC loans in 2008 was due primarily to the decline in the bank’s
capital level.


                                                    3
that sector. However, the bank’s plans to diversify the portfolio did not materialize due
to the financial impact of the significant deterioration of the ADC portfolio in 2008 and
into 2009. The 2008 examination report stated that indicators of a decline in the ADC
market had been on the horizon for some time, yet management did not take appropriate
action until loan quality began to deteriorate. By then, asset quality had declined to an
unacceptable level, and examiners considered actions taken by the Board and
management to identify problem loans and pursue foreclosure and collection reactionary.

Oversight and Risk Management Practices

Notwithstanding the steps taken by the Board to replace key management in 2008 and
correct weaknesses, the 2009 examination report stated that Board and management
supervision were severely lacking at the onset of the bank’s problems. Further, the report
stated that the poor condition of the bank preempted substantial improvement and despite
positive actions taken by the new management team, it could not effectively correct the
bank’s problems. The Interagency Guidance on Concentrations in Commercial Real
Estate Lending, Sound Risk Management Practices reiterated that concentrations in CRE
lending, coupled with weak loan underwriting and depressed CRE markets, contributed
to significant credit losses in the past. Earlier guidance on ADC lending4 emphasized
that management’s ability to identify, measure, monitor, and control portfolio risk
through effective underwriting policies, systems, and internal controls was crucial to a
sound ADC lending program. Further, Part 365 of the FDIC Rules and Regulations
requires FDIC-supervised institutions to adopt and maintain written policies that establish
appropriate limits and standards for all real estate loans, including ADC loans. In the
case of Southern Community, the bank lacked an adequate loan policy, and there were
deficiencies in its loan underwriting and credit administration practices and allowance for
loan and lease losses (ALLL) methodology.

Loan Policy

Southern Community’s Board did not establish effective risk management practices
sufficient to limit the bank’s exposure to its ADC concentrations. Southern Community’s
Loan Policy and Procedure Manual was silent regarding limits on total exposure to the
acquisition and development market in relation to capital and did not provide loan mix
guidelines, according to the 2008 examination. Specifically, while the loan policy did
address limitations for the number of speculative construction units and for acquisition
and development loans as a percent of the portfolio, there was no limit for total exposure
to the market as a percent of capital. The bank had begun to update its loan policy in
2007 and it was submitted to the Board for review and approval in 2008, but the new
policy was not in place at the time of the 2008 examination.




4
 Financial Institution Letter (FIL) 110-98, Internal and Regulatory Guidelines for Managing Risks
Associated with Acquisition, Development and Construction Lending, dated October 8, 1998. This FIL has
been superseded.


                                                  4
Loan Underwriting and Credit Administration Weaknesses

Southern Community did not implement sound loan underwriting and credit
administration practices, which contributed to the asset quality problems that developed
in the institution’s ADC portfolio. Specifically, the 2008 examination noted the
following weaknesses and violations:

    •   inadequate financial and cash flow analysis,
    •   lack of feasibility analysis to support development projects,
    •   infrequent formal inspections of large development projects,
    •   improper handling or liberal use of interest reserves, and
    •   documentation exceptions.

FIL-22-2008, Managing Commercial Real Estate Concentrations in a Challenging
Environment, issued March 17, 2008, provides key risk management processes for
institutions with CRE concentrations, one of which is to maintain updated financial and
analytical information for borrowers and states that global financial analysis5 of obligors
should be emphasized. The guidance also states that inappropriately adding extra interest
reserves on loans where the underlying real estate project is not performing as expected
can erode collateral protection and mask loans that would otherwise be reported as
delinquent.

The 2008 examination also noted that internal loan grading needed to be strengthened
because approximately 28 percent of the adverse loan classifications were downgraded
by examiners. Additionally, the 2008 examination reported that Southern Community
was in contravention of Appendix A to Part 365 of the FDIC Rules and Regulations
(Interagency Guidelines for Real Estate Lending Policies). Appendix A specifies that
loans in excess of the supervisory loan-to-value (LTV) limits should be identified in the
bank’s records and their aggregate amount reported to the Board at least quarterly.
Southern Community’s management did not implement a process to report these loans to
its Board. Five loans were found to exceed the supervisory LTV.

Allowance for Loan and Lease Losses

According to the 2008 examination report, the bank’s ALLL methodology needed to be
improved. Consistent with longstanding supervisory guidance, an institution’s ALLL
methodology must comply with accounting standards, and the ALLL must be maintained
at a level that is appropriate to cover estimated credit losses on individually evaluated
loans determined to be impaired, as well as estimated credit losses inherent in the
remainder of the portfolio. According to the 2008 examination, the bank was using loan
grades to calculate the allocation under Financial Accounting Standard No. 5 (FAS 5),6
but needed to further segment the ADC pool to fully comply with accounting standards.


5
 Global financial analysis involves analyzing a borrower’s complete financial obligations.
6
 Under FAS 5, management should segment the loan portfolio by identifying risk characteristics that are
common to groups of loans.


                                                    5
The 2009 examination also reported that the ALLL was underfunded and the
methodology was not in compliance with accounting standards.

Reliance on Volatile Funding Sources

Historically, Southern Community relied heavily on potentially volatile liabilities,
including large time deposits, brokered deposits, FHLB borrowings, and federal funds
purchased to fund loan growth. As shown in Figure 1, Southern Community’s net non-
core funding dependence ratio7 was consistently higher than its peer group from 2005
through 2008, and increased in 2008 when the bank purchased over $100 million in
brokered deposits. Generally, the lower the ratio, the less risk exposure there is for the
bank, whereas higher ratios reflect a reliance on funding sources that may not be
available in times of financial stress or adverse changes in market conditions.

Figure 1: Southern Community’s Net Non-Core Funding Dependence Ratio

    100.00
     90.00
     80.00
     70.00
     60.00
                                                                         Southern Community
     50.00
                                                                         Peer Group
     40.00
     30.00
     20.00
     10.00
      0.00
         Dec-05         Dec-06           Dec-07          Dec-08


Source: UBPRs for Southern Community.

Further, the 2005 and 2008 examinations reported that Southern Community’s net non-
core dependence ratios exceeded the bank’s policy parameters. The 2008 examination
also noted that Southern Community needed to develop a better tool to monitor its
liquidity position to enable management to more accurately forecast funding needs and
recommended that management evaluate its liquidity contingency plan.




7
 The net non-core funding dependence ratio is defined as non-core liabilities less short-term investments
divided by long-term assets. Non-core liabilities include total time deposits of $100,000 or more, insured
brokered deposits issued in denominations of less than $100,000, federal funds purchased, and other
borrowed money.


                                                     6
The FDIC’s Supervision of Southern Community
The FDIC and DBF conducted annual on-site examinations of Southern Community
consistent with requirements8 and monitored its condition through the use of various
offsite monitoring mechanisms. Examiners consistently identified and reported on
Southern Community’s ADC concentrations and reliance on non-core funding. However,
the bank’s asset quality, liquidity, and overall financial condition were considered
satisfactory until the 2008 examination. By then, asset quality had rapidly declined due
to the severe economic downturn. In hindsight, greater supervisory emphasis on the risk
profile created by the ADC concentrations reported in the 2005 examination would have
been prudent, in light of the historical vulnerability of ADC concentrations to economic
cycles. In addition, although it is not necessarily indicative of supervisory concern, one
of the FDIC’s offsite monitoring tools used in planning examinations indicated that
Southern Community had a high exposure to a potential economic downturn because of
its ADC concentrations. Accordingly, the 2005 examination report could have
emphasized to the bank the fundamental importance of risk diversification, as was done
in the 2008 examination, even though few risk management problems were identified in
the on-site examination. Doing so may not have been effective in persuading
management to diversify its portfolio at that time, but such emphasis would have served
to establish a supervisory tenor and expectations regarding the Board’s basic risk
management responsibility that was found to be lacking in 2008.

Supervisory History

Historically, Southern Community was considered a well-performing institution and
consistently received composite “2” CAMELS ratings.9 Our review focused on
supervisory oversight between 2005 and 2009. During that period, the FDIC and the
DBF conducted four safety and soundness examinations of Southern Community,
alternating these examinations with the exception of a final joint examination.

In the 2005 examination, the FDIC used Maximum Efficiency, Risk-focused, Institution
Targeted (MERIT) examination procedures.10 By the 2006 examination, examiners
identified Bank Secrecy Act (BSA) deficiencies and Information Technology (IT)


8
  Section 337.12 of the FDIC Rules and Regulations, which implements section 10(d) of the FDI Act,
requires annual full scope, on-site examinations of every state nonmember bank at least once every
12-month period and allows for 18-month intervals for certain small institutions (total assets of less than
$500 million) if certain conditions are satisfied. Southern Community did not meet the conditions for the
18-month examination cycle.
9
  Financial institution regulators and examiners use the Uniform Financial Institutions Rating System
(UFIRS) to evaluate a bank’s performance in six components represented by the CAMELS acronym:
Capital adequacy, Asset quality, Management practices, Earnings performance, Liquidity position, and
Sensitivity to market risk. Each component, and an overall composite score, is assigned a rating of 1
through 5, with 1 having the least regulatory concern and 5 having the greatest concern.
10
   In 2002, DSC implemented MERIT guidelines to assist examiners in risk-focusing examination
procedures in institutions with lower risk profiles. Under this program, the loan penetration ratio range was
guided by the asset quality rating at the last examination. In March 2008, DSC eliminated MERIT
examination procedures.


                                                     7
weaknesses and assigned the bank a composite “3” rating.11 Southern Community was
placed under a Memorandum of Understanding (MOU) to address the weaknesses. In
2007, the DBF and FDIC conducted separate visitations to follow up on the progress
related to the BSA and IT deficiencies. During 2007, the FDIC also monitored the
impact of the economic slowdown on the bank.

In the 2008 examination, examiners found that the overall condition of the bank had
deteriorated significantly and assigned it a composite “4” rating. Subsequently, in
September 2008, a Cease and Desist Order (C&D) effective October 6, 2008, was issued.
The C&D required the bank, among other things, to:

     •   Increase Board participation in the affairs of the bank;
     •   Adopt a plan for achieving and maintaining its Tier 1 Capital at or above
         8 percent of the bank’s total assets and maintaining minimum risk-based capital
         requirements for a Well Capitalized bank;
     •   Submit specific plans and proposals to effect the correction of all loan
         underwriting, loan administration, and loan portfolio management weaknesses;
     •   Develop an effective system of independent loan review to appropriately assess
         and grade the overall quality of the loan portfolio;
     •   Review the adequacy of the ALLL;
     •   Review its liquidity position at least monthly and develop or revise, adopt, and
         implement a written contingency liquidity plan; and
     •   Implement an asset/liability management policy that established an acceptable
         range for the bank’s non-core funding dependency ratio.

Despite efforts by the bank to address its problems during 2007, 2008, and 2009, the
condition of the bank continued to deteriorate, and Southern Community received a
composite “5” rating in 2009. Table 3 summarizes Southern Community’s supervisory
history during this period, including the supervisory actions taken.




11
   As a result of the state’s composite downgrade, risk management oversight responsibilities were
transferred from the field office to the regional office, and a case manager at the regional office level was
assigned.


                                                       8
Table 3: Examinations and Visitations of Southern Community, 2005 to 2009
                                                        Supervisory
                                                          Ratings
       Start Date        As of Date       Agency          (UFIRS)       Supervisory Action
        09/27/05          06/30/05          FDIC          222222/2                 N/A
        11/07/06          09/30/06          State         223222/3    Issued an MOU related to IT
                                                                      weaknesses and BSA
                                                                      deficiencies.
        6/18/07              N/A            State           N/A       Reviewed steps taken to
                                                                      improve IT function and
                                                                      BSA compliance.
       09/10/07              N/A            FDIC            N/A       Reviewed steps taken in
       Visitation                                                     response to BSA provisions
                                                                      in the MOU.
        01/31/08          12/31/07          FDIC          454533/4    Issued Cease and Desist
                                                                      Order (C&D).
        01/26/09          12/31/08       FDIC/State       554555/5    Continued to monitor
                                                                      compliance with the C&D.
 Source: Reports of Examination (ROE) for Southern Community.



Supervisory Concerns Related to ADC Concentrations

The 2005 and 2006 examinations reported ADC concentrations of 306 percent and
302 percent of Tier 1 Capital, respectively, and concluded that management adequately
monitored and reported the concentrations to the Board. Further, the 2005 and 2006
examination reports concluded that asset quality was satisfactory, risk management
policies and practices for the credit function were adequate, and past due and nonaccrual
loans were nominal and adequately monitored. As discussed earlier in this report,
MERIT examination procedures were used for the 2005 examination. Consistent with
these procedures, examiners reviewed 29 percent of the loan portfolio. DSC officials told
us that the use of MERIT procedures during the 2005 examination did not impact their
assessment of Southern Community’s loan portfolio because problems with the loan
underwriting and credit administration practices had not yet materialized. Notably, 89
percent of the loans classified as nonperforming in the 2009 examination were originated
after January 1, 2007.

The Interagency Guidance on Concentrations in Commercial Real Estate Lending, Sound
Risk Management Practices provides supervisory criteria for identifying institutions with
potentially significant CRE loan concentrations that may warrant greater supervisory
scrutiny, as follows:

   •    total reported loans for construction, land development, and other land represent
        100 percent or more of the institution’s total capital; or
   •    total commercial real estate loans that represent 300 percent or more of the
        institution’s total capital, and the outstanding balance of an institution’s CRE loan
        portfolio has increased by 50 percent or more during the prior 36 months.




                                                    9
Southern Community’s ADC concentration far exceeded 100 percent of total capital.
Recognizing that the 2006 guidance was not in place at the time of the 2005 examination,
the FDIC could have emphasized to the Board and management that the bank’s risk
profile was increasing because the lack of diversity in its loan portfolio and growth in
ADC concentrations was making it vulnerable to an economic downturn.

The 2008 examination reported that risk management weaknesses related to
concentrations were a primary concern, as the majority of adversely classified loans were
related to the residential ADC market. The adversely classified items ratio had reached
an excessive level of 231 percent and further increased to 396 percent at the 2009
examination.

Supervisory Concerns Related to ALLL

Examiner conclusions on the appropriateness of Southern Community’s ALLL
methodology and level varied. According to the Interagency Policy Statement on the
Allowance for Loan and Lease Losses, examiners should assess the credit quality of an
institution’s portfolio, the appropriateness of its ALLL methodology and documentation,
and the appropriateness of the reported ALLL in the institution’s regulatory reports. The
2005 FDIC examination stated that Southern Community’s ALLL methodology needed
improvement, but the 2006 state examination reported that management had revised the
methodology and that it was appropriate for the size and risk associated with the loan
portfolio. However, both the FDIC’s 2008 and the joint 2009 examinations indicated that
Southern Community’s ALLL methodology did not comply with accounting standards
and its ALLL reserve was inadequately funded. Table 4 illustrates the significant growth
in the bank’s adversely classified assets and the ALLL increases identified by examiners
in 2008 and 2009.

Table 4: Southern Community’s Adversely Classified Assets and ALLL
                                            Asset Quality
                                        (Dollars in Thousands)
                     Examiner Adversely Classified Asset
                                                                          ALLL Amounts
                                 Amounts
                                                                                    Increase in
 Examination                                               Total         ALLL          ALLL
    Date        Substandard      Doubtful       Loss     Adversely     Computed     Computed
                                                         Classified   by Southern       by
                                                           Items      Community     Examiners
   09/27/05             $5,081            $0       $39       $5,120        $2,358            $0
   11/07/06             $4,229          $198    $1,989       $6,416        $4,246            $0
   01/31/08            $84,072            $0    $4,982      $89,054        $6,244        $3,700
   01/26/09           $103,466            $0    $5,155     $108,621        $9,872        $2,600
 Source: ROEs for Southern Community.




                                                 10
Offsite Review Program

The offsite review program is designed to identify emerging supervisory concerns and
potential problems so that supervisory strategies can be adjusted appropriately. The
FDIC generates an offsite review list each quarter and performs offsite reviews for each
bank that appears on the list. The findings of these reviews are factored into examination
schedules and other supervisory activities. The system-generated offsite review list
includes only institutions rated “1” and “2” that are either:

     •   identified by the Statistical CAMELS Offsite Rating (SCOR) system as having a
         35 percent or higher probability of downgrade to “3” or worse,12 or
     •   identified in the Growth Monitoring System (GMS) as having a growth percentile
         of 98 or 99.13

Southern Community did not appear on the system-generated offsite review list because
it did not meet the criteria. Specifically, from 2004 through 2006, the bank was rated a
“2”, but its probability of a downgrade only reached 16 percent and its highest GMS
percentile was 97. In 2007, the bank would have met the criteria for inclusion on the
offsite review list based on its December 31, 2007 Call Report data; however, the bank
did not appear on the system-generated offsite review list because the bank had a
composite “3” CAMELS rating at that time. Notwithstanding, by the time the
December 31, 2007 offsite review list was generated in February 2008, the on-site
examination had already started.

The FDIC’s model that measures a bank’s exposure to concentrations, the Real Estate
Stress Test (REST),14 indicated that Southern Community had a REST score of “5” in
2005, 2006, and 2007. According to FDIC information about the REST model, a high
REST score does not necessarily mean that the institution is a supervisory concern but
indicates a high exposure to a potential economic downturn because of the concentrations
in construction and development loans. The REST model was designed to help focus
examination activities on risky areas before a downturn, and the reasons behind the REST
score need to be investigated before drawing conclusions about a particular institution.
The FDIC has not established formal requirements related to the use of REST because of
the varying nature of real estate exposures and localized market activities. Based on pre-
examination planning documents, the REST score was taken into consideration in
planning for Southern Community on-site reviews.

During 2007, the FDIC took steps to monitor institutions with high ADC concentrations,
including Southern Community. For example, in June 2007, the FDIC contacted

12
   SCOR is a financial model that uses statistical techniques, offsite data, and historical examination results
to measure the likelihood that an institution will receive a CAMELS downgrade at the next examination.
13
   GMS is an offsite rating tool that identifies institutions experiencing rapid growth or having a funding
structure highly dependent on non-core funding sources.
14
   REST attempts to simulate what would happen to banks today if they encountered a real estate crisis
similar to that of New England in the early 1990s. REST uses statistical techniques to forecast an
institution’s condition over a 3- to 5-year horizon and provides a single rating from 1 to 5 in descending
order of performance quality.


                                                      11
Southern Community officials to discuss the impact of the residential lending market on
the bank. Southern Community stated that the residential construction market was
saturated, that a large loan had been placed in nonaccrual after the borrower had filed
bankruptcy, that past due loans were up, and that the bank’s 2007 income would be well
below budget due to increased provisions for loan and lease losses. Using Call Report
data, the Atlanta Field Office Supervisor analyzed Southern Community’s ADC exposure
relative to other institutions supervised by that office in September 2007. This analysis
indicated that Southern Community had a relatively high risk exposure. The examination
start date was not accelerated because the next examination was scheduled to start in the
first quarter of 2008.

Supervisory Concerns Related to Volatile Funding

FDIC’s Rules and Regulations Part 337 states that any Well Capitalized insured
depository institution may solicit and accept, renew, or roll over any brokered deposit
without restriction. Southern Community had briefly dropped below a Well Capitalized
position at the end of 2007, but its holding company injected enough capital to return the
bank to Well Capitalized. Accordingly, during the 6-month period between March 31,
2008 and September 30, 2008, the bank was able to increase brokered deposits from
$22 million to $116 million to bolster its liquidity position. The majority of this increase
occurred after the issuance of the FDIC’s 2008 examination report, which discussed
Southern Community’s weakening condition. Specifically, Southern Community
purchased $82 million in brokered deposits during July and August 2008. The FDIC did
not begin weekly monitoring of the bank’s liquidity until after Southern Community had
purchased these brokered deposits. Figure 2 illustrates the percentage of brokered
deposits to total deposits between 2004 and 2008.

Figure 2: Southern Community’s Percentage of Brokered Deposits to Total
Deposits

   100.00
    90.00
    80.00
    70.00
    60.00
                                                                 Southern Community
    50.00
                                                                 Peer Group
    40.00
    30.00
    20.00
    10.00
     0.00
        Dec-05        Dec-06         Dec-07             Dec-08


Source: OIG analysis of UBPRs for Southern Community.

The C&D imposed by the FDIC, effective in October 2008, prohibited the bank from
accepting, renewing, or rolling over brokered deposits without obtaining a waiver from



                                                12
the FDIC. After the issuance of the C&D, Southern Community did not request a waiver
and had no further purchases of brokered deposits.

In March 2009, the FDIC took steps to address increases in wholesale funding by
institutions that are in a weakened condition. The FDIC issued FIL 13-2009, The Use of
Volatile or Special Funding Sources by Financial Institutions that are in a Weakened
Condition. This guidance states, among other things, that:

   •   Institutions rated “3”, “4”, or “5” are expected to implement a plan to stabilize or
       reduce risk exposure and limit growth. This plan should not include the use of
       volatile liabilities to fund aggressive asset growth or materially increase the
       institution’s risk profile.

   •   Corrective programs may include requirements that institutions notify the FDIC
       before undertaking asset growth or material changes in asset or liability
       composition.

This guidance should enable the FDIC to subject institutions that rely excessively on a
volatile funding mix to more extensive offsite monitoring and on-site examination to
ensure management is taking appropriate steps to stabilize the bank’s risk profile and
strengthen its financial condition.

Implementation of PCA

The purpose of PCA is to resolve problems of insured depository institutions at the least
possible long-term cost to the DIF. PCA establishes a system of restrictions and
mandatory and discretionary supervisory actions that are to be triggered depending on an
institution’s capital levels. Part 325 of the FDIC’s Rules and Regulations implements
PCA requirements by establishing a framework for taking prompt corrective action
against insured state-charted nonmember banks that are not Adequately Capitalized. As
stated previously in the report, Southern Community briefly fell to Adequately
Capitalized based on amended December 31, 2007 Call Report information, but its
holding company injected capital to return it to a Well Capitalized position. In addition
to including provisions in the C&D on minimum capital requirements, the FDIC followed
PCA guidance and appropriately notified the bank of its capital position and
corresponding requirements, as follows:

   •   On November 17, 2008, the FDIC notified Southern Community that it was
       Adequately Capitalized based on September 30, 2008 Call Report data and
       reaffirmed the brokered deposit restrictions that were included in the C&D.
   •   On February 17, 2009, the FDIC notified Southern Community that the bank was
       Undercapitalized and was required to submit a capital restoration plan within 45
       days.
   •   On May 26, 2009, the FDIC notified Southern Community that the bank was
       Significantly Undercapitalized and that its capital restoration plan submitted was
       not acceptable. Southern Community failed less than a month later on June 19,
       2009.

                                            13
Southern Community had submitted an application for the Troubled Asset Relief
Program (TARP)15 on November 14, 2008 for funding of $9 million. Southern
Community subsequently withdrew its application in February 2009.


Corporation Comments
After we issued our draft report, management provided additional information for our
consideration, and we revised our report to reflect this information, as appropriate. On
January 6, 2010, the Director, DSC, provided a written response to the draft report. That
response is provided in its entirety as Appendix 4 of this report. DSC reiterated the
OIG’s conclusions regarding the cause of Southern Community’s failure. With regard to
our assessment of the FDIC’s supervision of Southern Community, DSC noted that
examiners consistently identified the sizable ADC concentrations, yet judged the overall
financial condition to be satisfactory despite Southern Community's high risk profile
through the 2006 examination. The 2008 examination reported significant deterioration
in credit administration and underwriting. DSC agreed that emphasis of the fundamental
importance of risk diversification might have better established supervisory expectations
regarding the Board’s basic risk management responsibility.




15
  TARP was established under the Emergency Economic Stabilization Act of 2008. The Act established
the Office of Financial Stability within the Department of the Treasury. Under TARP, Treasury will
purchase up to $250 billion of preferred shares from qualifying institutions as part of the Capital Purchase
Program.


                                                     14
                                                                               Appendix 1

                    Objectives, Scope, and Methodology

Objectives

We performed this audit in accordance with section 38(k) of the FDI Act, which
provides, in general, that if a deposit insurance fund incurs a material loss with respect to
an insured depository institution, the Inspector General of the appropriate federal banking
agency shall prepare a report to that agency, reviewing the agency’s supervision of the
institution. The FDI Act requires that the report be completed within 6 months after it
becomes apparent that a material loss has been incurred.

The objectives of this material loss review were to (1) determine the causes of Southern
Community’s failure and the resulting material loss to the DIF and (2) evaluate the
FDIC’s supervision of Southern Community, including the FDIC’s implementation of the
PCA provisions of section 38 of the FDI Act.

We conducted the audit from October 2009 to December 2009, in accordance with
generally accepted government auditing standards. Those standards require that we plan
and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions based on
our audit objectives.

Scope and Methodology

To achieve the audit objectives, we performed the following procedures and techniques:

   •   Analyzed examination reports prepared by the FDIC and the DBF from 2005 to
       2009.

   •   Analyzed available examination work papers prepared by the FDIC from 2008 to
       2009.

   •   Reviewed the following:

       - Bank data contained in UBPRs and Call Reports.
       - Correspondence maintained at DSC’s Atlanta Regional and Field Offices.
       - DSC’s Virtual Supervisory Information on the Net (ViSION) Modules,
         including Supervisory Tracking & Reporting.
       - Reports from the bank’s internal auditors, Porter Keadle Moore, LLP, as of
         September 21, 2007 and external auditors, Mauldin & Jenkins, LLC, for the
         year ended 2006.
       - Pertinent DSC policies and procedures.


   •   Interviewed the following FDIC officials:



                                             15
                                                                             Appendix 1

                   Objectives, Scope, and Methodology

       - DSC regional management in Atlanta.
       - DSC examiners in the Atlanta Field Office.

   •   Interviewed DBF officials from Atlanta to discuss their perspective of the
       institution, its examinations, and other activities regarding the DBF’s supervision
       of the bank.

We performed our audit field work at the OIG offices in Arlington, Virginia.

Internal Control, Reliance on Computer-processed Information,
Performance Measurement, and Compliance with Laws and Regulations

Consistent with our audit objectives, we did not assess DSC’s overall internal control or
management control structure. We relied on information in DSC’s systems, reports,
ROEs, and interviews of DSC and DBF examiners to obtain an understanding of
Southern Community’s management controls pertaining to the causes of failure and
material loss as discussed in the body of this report. Although we obtained information
from various FDIC systems, we determined that the controls pertaining to these systems
were not significant to the audit objectives, and therefore, did not evaluate the
effectiveness of information system controls. We relied on information from various
sources, including ROEs, correspondence files, and testimonial evidence, to corroborate
data obtained from systems that were used to support our audit conclusions.

The Government Performance and Results Act of 1993 (the Results Act) directs
Executive Branch agencies to develop a customer-focused strategic plan, align agency
programs and activities with concrete missions and goals, and prepare and report on
annual performance plans. For this material loss review, we did not assess the strengths
and weaknesses of DSC’s annual performance plan in meeting the requirements of the
Results Act because such an assessment was not part of the audit objectives. DSC’s
compliance with the Results Act is reviewed in OIG program audits of DSC operations.

Regarding compliance with laws and regulations, we performed tests to determine
whether the FDIC had complied with the provisions of PCA and limited tests to
determine compliance with certain aspects of the FDI Act. The results of our tests were
discussed where appropriate in the report. Additionally, we assessed the risk of fraud and
abuse related to our objectives in the course of evaluating audit evidence.




                                            16
                                                                                  Appendix 2

                               Glossary of Terms

Term                Definition
Adversely           Assets subject to criticism and/or comment in an examination report.
Classified Assets   Adversely classified assets are allocated on the basis of risk (lowest to
                    highest) into three categories: Substandard, Doubtful, and Loss.
Allowance for       Federally insured depository institutions must maintain an ALLL that is
Loan and Lease      adequate to absorb the estimated loan losses associated with the loan and
Losses (ALLL)       lease portfolio (including all binding commitments to lend). To the
                    extent not provided for in a separate liability account, the ALLL should
                    also be sufficient to absorb estimated loan losses associated with off-
                    balance sheet loan instruments such as standby letters of credit.
Bank Secrecy Act    Congress enacted BSA of 1970 to prevent banks and other financial
(BSA)               service providers from being used as intermediaries for, or to hide the
                    transfer or deposit of money derived from, criminal activity. The BSA
                    requires financial institutions to maintain appropriate records and to file
                    certain reports used in criminal, tax, or regulatory investigations or
                    proceedings.
Call Report         Consolidated Reports of Condition and Income (also known as the Call
                    Report) are reports that are required to be filed by every national bank,
                    state member bank, and insured nonmember bank pursuant to the
                    Federal Deposit Insurance Act. These reports are used to calculate
                    deposit insurance assessments and monitor the condition, performance,
                    and risk profile of individual banks and the banking industry.
Concentration       A concentration is a significantly large volume of economically related
                    assets that an institution has advanced or committed to a certain industry,
                    person, entity, or affiliated group. These assets may, in the aggregate,
                    present a substantial risk to the safety and soundness of the institution.
Federal Home        The Federal Home Loan Bank System provides liquidity to member
Loan Bank           institutions that hold mortgages in their portfolios and facilitates the
(FHLB)              financing of mortgages by making low-cost loans, called advances, to its
                    members. Advances are available to members with a wide variety of
                    terms to maturity, from overnight to long term, and are collateralized.
                    Advances are designed to prevent any possible loss to FHLBs, which
                    also have a super lien (a lien senior or superior to all current and future
                    liens on a property or asset) when institutions fail. To protect their
                    position, FHLBs have a claim on any of the additional eligible collateral
                    in the failed bank. In addition, the FDIC has a regulation that reaffirms
                    FHLB priority, and FHLBs can demand prepayment of advances when
                    institutions fail.
Loan-to-Value       A ratio for a single loan and property calculated by dividing the total
                    loan amount at origination by the market value of the property securing
                    the credit plus any readily marketable collateral or other acceptable
                    collateral.




                                             17
                                                                                Appendix 2

                               Glossary of Terms

Memorandum of       An informal corrective administrative action for institutions considered
Understanding       to be of supervisory concern, but which have not deteriorated to the
(MOU)               point where they warrant formal administrative action. As a general
                    rule, an MOU is to be considered for all institutions rated a composite
                    “3”.
Prompt              The purpose of PCA is to resolve the problems of insured depository
Corrective Action   institutions at the least possible long-term cost to the DIF. Part 325,
(PCA)               subpart B, of the FDIC Rules and Regulations, 12 Code of Federal
                    Regulations, section 325.101, et. seq, implements section 38, Prompt
                    Corrective Action, of the FDI Act, 12 United States Code section
                    1831(o), by establishing a framework for taking prompt supervisory
                    actions against insured nonmember banks that are less than adequately
                    capitalized. The following terms are used to describe capital adequacy:
                    (1) Well Capitalized, (2) Adequately Capitalized, (3) Undercapitalized,
                    (4) Significantly Undercapitalized, and (5) Critically Undercapitalized.

                    A PCA Directive is a formal enforcement action seeking corrective
                    action of compliance with the PCA statute with respect to an institution
                    that falls within any of the three categories of undercapitalized
                    institutions.
Uniform Bank        The UBPR is an individual analysis of financial institution financial data
Performance         and ratios that includes extensive comparisons to peer group
Report (UBPR)       performance. The report is produced by the Federal Financial
                    Institutions Examination Council for the use of banking supervisors,
                    bankers, and the general public and is produced quarterly from data
                    reported in Reports of Condition and Income submitted by banks.




                                            18
                                                                        Appendix 3

                              Acronyms
ADC      Acquisition, Development, and Construction
ALLL     Allowance for Loan and Lease Losses
BSA      Bank Secrecy Act
C&D      Cease and Desist Order
CAMELS   Capital, Asset Quality, Management, Earnings, Liquidity, and
         Sensitivity to Market Risk
CRE      Commercial Real Estate
DBF      Department of Banking and Finance
DIF      Deposit Insurance Fund
DSC      Division of Supervision and Consumer Protection
FAS      Financial Accounting Standard
FDI      Federal Deposit Insurance
FHLB     Federal Home Loan Bank
FIL      Financial Institution Letter
GMS      Growth Monitoring System
IT       Information Technology
LTV      Loan-to-Value
MERIT    Maximum Efficiency, Risk-focused, Institution Targeted
MOU      Memorandum of Understanding
OIG      Office of Inspector General
PCA      Prompt Corrective Action
REST     Real Estate Stress Test
ROE      Report of Examination
SCBI     Southern Community Bancshares, Inc.
SCOR     Statistical CAMELS Offsite Rating
TARP     Troubled Asset Relief Program
UBPR     Uniform Bank Performance Report
UFIRS    Uniform Financial Institutions Rating System




                                      19
